DOE/IG-0468




         AUDIT
        REPORT

                                FACILITIES INFORMATION
                                 MANAGEMENT SYSTEM




                                          APRIL 2000




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                       April 26, 2000


MEMORANDUM FOR THE SECRETARY

FROM:                  Gregory H. Friedman (Signed)
                       Inspector General

SUBJECT:               INFORMATION: Report on “Facilities Information Management
                       System”


BACKGROUND

In July 1995, the Department of Energy implemented a $2 million corporate database
which was to contain up-to-date, reliable and comprehensive real property information.
The specific intent was to provide the Department’s decisionmakers at Headquarters and
in the field with the data needed to make informed judgments regarding the management
of the Department’s real property inventory. At the time of our audit, the database, the
Facilities Information Management System (FIMS), included over 100 million gross
square feet of building space, 2 million acres of land, $7 billion worth of other structures
and facilities, and $900 million of deferred maintenance items.

With its multi-billion dollar inventory of real property at sites throughout the nation,
maintaining complete and accurate information on these holdings is critical.
Accordingly, the objective of this audit was to determine if FIMS was a reliable source of
information.


RESULTS OF AUDIT

FIMS did not contain accurate and complete information. Therefore, it did not provide
the Department with reliable information on its real property inventory:

   •   significant amounts of real property at some sites had not been recorded in the
       FIMS database;

   •   property recorded in the database could not be located at certain sites;

   •   some supplemental data needed to manage and report on real property had not
       been entered in the system;

   •   many field sites maintained their own site-specific real property systems, choosing
       not to use FIMS; and,
                                              2



   •   the Headquarters organization with oversight responsibility for FIMS did not have
       the authority to require field sites to maintain or use the database.

As a result, the Department’s ability to rely on FIMS for decisions concerning real
property was questionable.


We recommended that the Field Management Council take a series of actions to
strengthen the collection and management of real property information. In suggesting
these actions, we concluded that the Department must make a concerted effort to include
the users of real property information in the process. Further, changes to FIMS should be
coordinated to ensure consistency with the Department’s Information Technology
Architecture.


MANAGEMENT REACTION

Management agreed with the audit conclusions and recommendations.


Attachment

cc: Deputy Secretary
    Under Secretary
Facilities Information Management System

TABLE OF
CONTENTS




               Overview

               Introduction And Objective .................................................................. 1

               Conclusions And Observations ............................................................ 1


               Facilities Information Management System

               Details Of Finding ................................................................................ 3

               Recommendations And Comments ...................................................... 8


               Appendices

               1. Population Percentages ................................................................... 9

               2. Scope And Methodology .............................................................. 10

               3. Related Office Of Inspector General Reports .............................. 11
Overview

INTRODUCTION AND   In July 1995, the Department of Energy (Department) implemented the
OBJECTIVE          Facilities Information Management System (FIMS) as its corporate real
                   property database. This system was the Department's official record of
                   all owned and leased lands, buildings, trailers, and other facilities and
                   structures, such as fences and power lines. The purpose of FIMS was to
                   provide Departmental management with access to up-to-date, reliable
                   real property information and to assist in real property decision making.

                   FIMS consists of 340 data elements. Management considered 210 of
                   these elements in the FIMS system necessary for effective management
                   of real property. Examples of these data elements included initial
                   acquisition cost of the property, gross square footage, deferred
                   maintenance cost, and hazard categorization. Currently, over 100
                   million gross square feet of building space, 2 million acres of land, $7
                   billion worth of other structures and facilities, and $900 million worth
                   of deferred maintenance costs are accounted for in the system.

                   The Department's management and operating contractors at field sites
                   were responsible for maintaining the database. Federal administrators
                   in the field were appointed to ensure the input of relevant data into the
                   system. At Headquarters, through Fiscal Year 1999, the Office of Field
                   Integration had oversight responsibility for the system. This
                   responsibility was transferred to the Office of Management and
                   Administration at the beginning of Fiscal Year 2000.

                   The objective of this audit was to determine if FIMS provided the
                   Department with accurate and complete information to manage its real
                   property assets.


CONCLUSIONS AND    FIMS was inaccurate and incomplete. Real property existed at some
OBSERVATIONS       sites that had not been entered in FIMS, while in other instances,
                   recorded property could not be located. In addition, some supplemental
                   data needed to help manage and report on the Department's real
                   property had not been entered in the system. This occurred because
                   many field sites maintained their own site-specific real property
                   systems and did not use FIMS to manage property. Further, the
                   Headquarters organization with oversight responsibility for FIMS did
                   not have the authority to require field sites to maintain and use the
                   database.

                   As a result, the ability of Departmental management, the Congress, and
                   other Federal agencies to use FIMS data to make informed decisions
                   pertaining to real property holdings was questionable. Departmental


Page 1                                                      Introduction And Objective/
                                                         Conclusions And Observations
         managers had to use other time consuming measures to obtain the real
         property information needed for decision making. Further, the General
         Services Administration may not have been able to effectively plan
         space needs and promote utilization of properties because of inaccurate
         and incomplete FIMS data. Finally, FIMS data resulted in an
         understatement of the Department's environmental liability in its
         financial statements.

         In accordance with the Department's Strategic Plan, an integrated
         Departmentwide framework was to be used for planning, budgeting,
         evaluating, and implementing information management requirements to
         reduce costs and improve operations. Moreover, the Government
         Performance and Results Act of 1993 required the Department to
         prepare performance plans effective Fiscal Year 1999. This planning
         process was designed to ensure that efforts to improve information
         systems were consistent with the Department's overall strategic goals
         and objectives. In accordance with the initiatives, we recommended
         that the Chair of the Field Management Council develop and implement
         a strategy for providing and managing real property information. In
         developing this strategy the Chair should ensure that users of real
         property information are included in the process and steps taken in the
         plan are consistent with the Department's Information Technology
         Architecture. Management's implementation plan of action should also
         include an analysis of the costs and benefits of the system, user needs,
         other requirements, and generally accepted management practices.

         In our opinion, the matters discussed in this report should be considered
         by management when preparing its yearend assurance memorandum on
         internal controls.



                                                      Signed
                                               Office of Inspector General




Page 2                                         Conclusions And Observations
Facilities Information Management System

FIMS Data Was Not       FIMS did not contain an accurate and complete record of the
Accurate And Complete   Department's real property assets. Some sites had not recorded all real
                        property and related information in FIMS. In other instances, real
                        property that had been recorded in the system could not be located.

                                                    Inaccurate Data

                        The FIMS database at two of the three sites visited was inaccurate. At
                        Savannah River at least 176 facilities had not been entered in FIMS.
                        Conversely, 416 facilities entered into FIMS could not be located.
                        Furthermore, the gross square footage associated with 351 facilities
                        located at both Savannah River and Oak Ridge had been incorrectly
                        entered in the database.

                        To test the accuracy of FIMS data, a judgmental sample of 31 facilities
                        at Savannah River that had been recorded in the database was selected
                        for physical observation. Three of the 31 facilities, with an initial
                        acquisition of about $119,734, could not be located. One of these
                        facilities was a trailer and the other two were small modular facilities.
                        Officials advised that these three facilities might have been excessed or
                        moved to other locations. As a further check, 31 facilities that existed
                        at the site were selected and traced back to the FIMS database. Nine of
                        these facilities had not been entered in the database.

                        Savannah River officials acknowledged that FIMS was inaccurate and
                        had not been updated for several years. Prior to our site visit, officials
                        performed reconciliations between FIMS and several onsite property
                        systems and conducted physical walkdowns to determine the number
                        and related square footage of the facilities. Officials found that 176
                        facilities with approximately 313,313 square feet had not been entered
                        into FIMS. In addition, 416 facilities were entered in FIMS but could
                        not be located, and the square footage associated with another 343 was
                        inaccurately entered and needed modification. Officials further advised
                        that additional discrepancies might arise since 578 facilities had not
                        been reviewed at the time of our site visit.

                        FIMS data at both the Oak Ridge National Lab (ORNL) and Y-12 were
                        also inaccurate. The square footage of buildings recorded in FIMS was
                        compared to blueprint measurements for 17 ORNL and Y-12 buildings.
                        Discrepancies existed in the data recorded for 8 facilities, with an initial
                        acquisition of about $43,087,080. For all 8 facilities, FIMS square
                        footage was misstated by 56,120. As an example, FIMS data showed
                        that one facility contained 12,170 square feet, while the facility
                        blueprint indicated 27,946 square feet.

Page 3                                                                         Details Of Finding
         Additional inaccuracies in FIMS data at Oak Ridge may exist.
         Comparison between FIMS and other site databases showed that 135
         buildings and trailers at ORNL and 209 buildings and trailers at Y-12
         had not been entered in FIMS. However, it was unclear whether FIMS
         data or the data contained in the other systems was inaccurate. We were
         advised by Oak Ridge that efforts are currently underway to resolve
         these discrepancies.

                                  Incomplete Database

         Some data needed to track and report real property activities had not
         been entered into FIMS. At the time of our audit, FIMS officials
         considered 210 of the 340 data elements necessary for effective
         management of real property. We sampled 26 of these data elements.
         Four were 100 percent complete (commonly referred to as populated).
         However, 14 of the data elements sampled were less than 50 percent
         populated. Appendix 1 provides a listing of the population percentage
         for all 26 data fields sampled.

         The table below shows examples of data fields that were not fully
         populated.

            Table 1 - Population Percentages for Selected Data Elements

                  Data Element                    Percentage Populated

               Hazard Category                                49
               Chemicals: Explosives                          14
               Nuclides (Tritium)                              2
               Nuclear Material/Waste (High-Level)            14


         The first three elements in the table provide important information in
         potential emergency situations relating to the offsite, onsite, and
         localized consequences during an accident. The last element indicates
         the presence of high-level waste stored at a facility, which is important
         for planning usage or other management purposes.

         Because many fields in FIMS of this type were not fully populated,
         managers could not readily determine whether this information was
         either not applicable to particular Departmental facilities or
         inappropriately omitted from the database. Management and
         Administration officials advised that over the last 2 years attempts have
         been made to direct the population of FIMS fields. Further,


Page 4                                                         Details Of Finding
                           Environmental Management has been asked to review the need and
                           definitions of the 42 hazardous material fields.


Departmental Systems       Federal regulations require the establishment of effective Government
Should Be Complete And     information systems. Office of Management and Budget Circular
Reliable                   A-127 requires that Federal systems provide complete, reliable,
                           consistent, timely, and useful management information on Federal
                           Government operations to enable agencies to have efficient and
                           effective programs and program performance. Department of Energy
                           Order 430.1, "Life Cycle Asset Management," establishes FIMS as
                           the Department's corporate database for physical assets. The Order
                           further requires that FIMS be maintained as a complete, current
                           inventory of the Department's physical assets to enable decision
                           makers to carry out their responsibilities.

                           The Government Performance and Results Act of 1993 reinforced the
                           importance of accurate and complete information systems and the
                           achievement of mission, goals, and objectives. In keeping with the
                           requirements of this Act, the Department's Strategic Plan (Plan)
                           emphasizes the need for useful information to manage operations.
                           The Plan also recommends improving decision making by corporately
                           administering the Department's mission, functions, and activities. In
                           this regard, accurate and timely data in FIMS was necessary to ensure
                           the Department and other agencies make informed decisions
                           regarding Federal property.


Responsibility And Lines   Some field sites did not always maintain accurate and complete
Of Authority Need To Be    information in FIMS because they relied upon alternative local
Clarified                  systems. In response to a questionnaire, many sites advised they
                           maintained in-house real property systems and did not understand the
                           need for or usefulness of the Departmentwide FIMS database. This
                           problem was compounded by the fact that the Headquarters
                           organization responsible for oversight of FIMS did not have the
                           authority to require field sites to maintain or use the database.

                           At the time the Department implemented FIMS in 1995, many sites
                           maintained their own systems. FIMS was introduced to serve as the
                           centralized database for real property information. However, more
                           than 4 years after implementation as many as 20 sites, including
                           Savannah River and Oak Ridge, continued to operate and use existing
                           in-house systems. FIMS did not serve as the primary real property
                           information system at those sites.


Page 5                                                                      Details Of Finding
         Failure of sites to use FIMS and assure its full integration with other
         systems was previously reported on by the Office of Inspector General
         (OIG). A 1997 audit of the Department's leased administrative facilities
         found that many sites were not using FIMS as the primary real property
         information system. In a 1998 review of the Department's information
         management systems, the OIG found that numerous, independent
         systems for meeting program office needs in the same functional area
         were being operated. It was determined that an Information
         Architecture Plan needed to be developed to assure full integration of
         those systems.

         Field site officials advised that they continued to use existing systems
         because of the amount of detail and reliability of the information
         contained in these systems. Further, field officials asserted that many
         of the data fields in FIMS did not assist them in their local management
         of property but rather satisfied Headquarter’s need for real property
         information. Field officials also advised that resources were
         insufficient to implement, validate, and maintain the information in
         FIMS.

         At sites that did use the FIMS database, tests conducted indicated that
         the information was accurate. For example, Argonne and Fermilab
         National Laboratories both relied on FIMS to manage real property. A
         test of the data accuracy of the initial acquisition costs, square footage,
         deferred maintenance and deficiency code recorded in FIMS for 47
         facilities located at those sites revealed only minor discrepancies.
         Further, all physical observation tests at both sites revealed no
         discrepancies. Laboratory officials advised actions had been taken to
         ensure FIMS accuracy, including a monthly reconciliation between
         FIMS and the Financial Information Systems. An annual reconciliation
         was also conducted between FIMS and the plant ledger.

         A lack of authority at the Headquarters level also contributed to field
         indifference over the accuracy and completeness of FIMS data. In 1995
         the Office of Field Integration was assigned oversight responsibility for
         FIMS. However, the organization did not have authority to require
         field sites to maintain the database. With the dismantlement of Field
         Integration in Fiscal Year 1999, responsibility for FIMS was transferred
         to the Office of Contract Resource Management. This office also did
         not have the authority to require FIMS maintenance or usage.




Page 6                                                         Details Of Finding
Inaccurate And            Although FIMS was the Department's primary source of information
Incomplete Data Hinders   on real property, inaccurate and incomplete data in this system
Effective Management      prevented some managers from relying on FIMS and could have
                          impacted other’s decisions. Specific examples of how this data has
                          affected internal and external users as well as the Department's
                          financial statements follow.

                                                       Internal Users

                          An analysis of 4 of 22 FIMS data requests received during a 6-month
                          period in 1999 showed that two managers were unable to make
                          informed decisions because of inaccurate and incomplete data. One
                          request was for an inventory of all Department buildings to determine
                          compliance with Year 2000 Conservation requirements. The other
                          was for hazard category information needed for Department safety
                          analysis decisions. Because the data was inaccurate and incomplete,
                          these managers used other time consuming measures to obtain the
                          needed information.

                                                       External Users

                          FIMS data was used to satisfy reporting requirements of the General
                          Services Administration (GSA). The GSA used this data, in
                          conjunction with other available data, to (1) plan space needs; (2)
                          promote fuller utilization of available properties; (3) conduct property
                          management and property accounting surveys; (4) evaluate budgetary
                          requests for acquisition of real property; and (5) facilitate onsite
                          inspection activities. Similarly, FIMS was used to respond in part to a
                          1999 congressional request for information on the Department's
                          funding for its facility maintenance program. In both cases, the
                          ability to fully use FIMS information was questionable in view of the
                          inaccuracy and incompleteness of the data.

                                                   Financial Statements

                          FIMS square footage data for contaminated facilities was utilized to
                          compute a portion of the Department's estimated environmental
                          liability. Tests of the data indicated that at Y-12 and ORNL, incorrect
                          square footage for three facilities resulted in an $8.1 million
                          understatement of the environmental liability. Although this
                          misstatement was not material to the Department's overall financial
                          statements, it was another indication that data inaccuracies and
                          omissions in FIMS hindered effective management of real property
                          resources.

Page 7                                                                       Details Of Finding
RECOMMENDATIONS   We recommend that the Chair of the Field Management Council,
                  working with the Office of Management and Administration and Lead
                  Program Secretarial Offices take the following actions to ensure the
                  reliability of real property information:

                  1. Reassess all FIMS data fields and eliminate those that are not
                     essential for managing real property.

                  2. Require field sites to:

                         a. populate all data fields in FIMS determined to be essential
                            for managing real property,
                         b. validate the accuracy of FIMS data, and
                         c. reconcile and, when cost effective, or upon completion and
                            implementation of the Department's Information Technology
                            Architecture, integrate FIMS with other related Headquarters
                            and field site real property information systems and
                            databases.

                  3. Establish an action plan with goals and milestones for populating
                     and validating FIMS. In establishing this plan, ensure that users of
                     real property information are included in the process and steps taken
                     in the plan are consistent with the Department's Information
                     Technology Architecture.

                  4. Establish performance standards and measures for FIMS or
                     contractor equivalent in accordance with the Government
                     Performance and Results Act.

                  5. Ensure that future additions of data fields to the system are based on
                     valid long-term needs.


MANAGEMENT        Management agreed with the audit conclusions and recommendations.
REACTION          Management stated that FIMS data elements will be reassessed by the
                  appropriate program offices to determine those that are not essential to
                  real property management. In addition, an action plan with goals and
                  milestones for populating and validating FIMS will be established.


AUDITOR           We consider management's comments to be responsive to the
COMMENTS          recommendations. However, a formal action plan will be required to
                  ensure full implementation of the audit recommendations.



Page 8                                              Recommendations And Comments
Appendix 1

                             FIMS FIELD POPULATION PERCENTAGES

                                  FOR SELECTED DATA ELEMENTS

    1. Deferred Maintenance                                       100
    2. Gross Square Footage                                       100
    3. Area Office                                                100
    4. Year Acquired (Trailers)                                   100
    5. Number of Floors                                            98
    6. Year Built (Buildings & Trailers)                           91
    7. Summary Condition (Buildings & Trailers)                    88
    8. Net Occupiable Square Feet                                  87
    9. Land Ownership (Buildings & Trailers)                       85
    10. Building/Trailer Status                                    81
    11. Responsible HQ Program Office (Buildings & Trailers)       80
    12. Model Building Type                                        67
    13. Hazard Category                                            49
    14. Responsibility Date (Buildings & Trailers)                 42
    15. Building/Trailer Deficiency Systems                        40
    16. No. of Floors Below Grade                                  20
    17. Chemicals: Explosives                                      14
    18. Nuclear Material/Waste (High-Level)                        14
    19. Nuclear Material/Waste (Spent Nuclear Fuel)                14
    20. Chemicals: Mercury                                         14
    21. Nuclear Material/Waste: Transuranic Waste (TRW)            14
    22. Confinement Integrity and Associated Active Confine-       8
        ment Fields (Buildings & Trailers)
    23. History/Use (Buildings & Trailers)                         7
    24. Nuclides: Highly-Enriched Uranium                          2
    25. Radiation Designation: Radiation Area                      2
    26. Nuclides (Tritium)                                         2



Page 9                                                           Population Percentages
Appendix 2

SCOPE         The audit was performed between June 1999 and March 2000. Site
              visits were made to Savannah River Site in Aiken, South Carolina;
              Argonne National Laboratory in Chicago, Illinois; Fermilab National
              Accelerator Laboratory in Batavia, Illinois; and, the Oak Ridge
              National Laboratory and Y-12 facilities in Oak Ridge, Tennessee.
              Information regarding real property information systems was also
              provided by 32 Department sites in response to an Office of Inspector
              General questionnaire.


METHODOLOGY   To accomplish the objective we obtained and reviewed applicable
              regulations and Departmental orders pertaining to real property and
              financial systems. In addition, discussions were held with
              Departmental and contractor officials who provided information on
              FIMS. Further, we reviewed related reports by the Office of Inspector
              General.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Because our review
              was limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed. We tested the accuracy and
              reliability of computer-generated data and concluded, as discussed in
              the report, that this data was not accurate or reliable.

              We held an exit conference with Headquarters officials on March 30,
              2000.




Page 10                                                     Scope And Methodology
Appendix 3

                    RELATED OFFICE OF INSPECTOR GENERAL REPORTS


   Audit of the Management of the Department of Energy's Leased Administrative Facilities,
   (DOE/IG-0402, April 1, 1997) - The Department did not maintain an accurate Departmentwide real
   property database. Although the Department's Headquarters and field sites had spent an estimated
   $1.8 million on the development and implementation of the Facility Information Management
   System (FIMS), none of the sites visited were using FIMS as their current real property information
   system.

   Review of the U.S. Department Of Energy's Information Management System, (DOE/IG-0423,
   August 10, 1998) - The Department had not developed and implemented an Information Technology
   Architecture although its Strategic Plan called for the implementation of a Departmentwide
   information architecture with supporting standards by January 1998. An information technology
   architecture is necessary to properly manage and control future systems development efforts. This
   included the Facilities Information Management System.

   Audit of the Department of Energy's Consolidated Financial Statements for Fiscal Years 1999 and
   1998, (DOE/IG-FS-00-01, February 17, 2000) - A reportable condition, included in the internal
   control report on the Fiscal Years 1999 and 1998 financial statements addresses a weakness in
   estimating the environmental liability for contaminated active and surplus facilities. The estimate
   was based on data derived from FIMS. However, errors were noted in the input data for 14 of 85
   facilities selected for review.




Page 11                                                                                  Related Reports
                                                                              IG Report No. DOE/IG-0468

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
   The Office of Inspector General wants to make the distribution of its reports as customer
 friendly and cost effective as possible. Therefore, this report will be available electronically
                   through the Internet at the following alternative address:


             Department of Energy Management and Administration Home Page
                                http://www.hr.doe.gov/ig
                                           or
                                 http://www.ma.doe.gov

Your comments would be appreciated and can be provided on the Customer Response Form
attached to the report.
